<html>
<title> - LEVELING THE PLAYING FIELD FOR WORKING FAMILIES: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 LEVELING THE PLAYING FIELD FOR WORKING
                 FAMILIES: CHALLENGES AND OPPORTUNITIES

=======================================================================

                                HEARING

                              BEFORE THE

               SUBCOMMITTEE ON WORKER AND FAMILY SUPPORT

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                           Serial No. 116-10

                               __________

         Printed for the use of the Committee on Ways and Means

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-238                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                      COMMITTEE ON WAYS AND MEANS

                RICHARD E. NEAL, Massachusetts, Chairman

JOHN LEWIS, Georgia                  KEVIN BRADY, Texas
LLOYD DOGGETT, Texas                 DEVIN NUNES, California
MIKE THOMPSON, California            VERN BUCHANAN, Florida
JOHN B. LARSON, Connecticut          ADRIAN SMITH, Nebraska
EARL BLUMENAUER, Oregon              KENNY MARCHANT, Texas
RON KIND, Wisconsin                  TOM REED, New York
BILL PASCRELL, JR., New Jersey       MIKE KELLY, Pennsylvania
DANNY DAVIS, Illinois                GEORGE HOLDING, North Carolina
LINDA SANCHEZ, California            JASON T. SMITH, Missouri
BRIAN HIGGINS, New York              TOM RICE, South Carolina
TERRI SEWELL, Alabama                DAVID SCHWEIKERT, Arizona
SUZAN DELBENE, Washington            JACKIE WALORSKI, Indiana
JUDY CHU, California                 DARIN LAHOOD, Illinois
GWENDOLYNNE MOORE, Wisconsin         BRAD R. WENSTRUP, Ohio
DAN KILDEE, Michigan                 JODEY ARRINGTON, Texas
BRENDAN BOYLE, Pennsylvania          DREW FERGUSON, Georgia
DON BEYER, Virginia                  RON ESTES, Kansas
DWIGHT EVANS, Pennsylvania
BRAD SCHNEIDER, Illinois
TOM SUOZZI, New York
JIMMY PANETTA, California
STEPHANIE MURPHY, Florida
JIMMY GOMEZ, California
STEVEN HORSFORD, Nevada

                     Brandon Casey, Staff Director

                 Gary J. Andres, Minority Chief Counsel

                                 ______

               SUBCOMMITTEE ON WORKER AND FAMILY SUPPORT

                   DANNY K. DAVIS, Illinois, Chairman

TERRI SEWELL, Alabama                JACKIE WALORSKI, Indiana
JUDY CHU, California                 BRAD R. WENSTRUP, Ohio
GWENDOLYNNE MOORE, Wisconsin         RON ESTES, Kansas
DWIGHT EVANS, Pennsylvania           TOM REED, New York
STEPHANIE MURPHY, Florida
JIMMY GOMEZ, California


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 28, 2019 announcing the hearing.............     2

                               WITNESSES

Yvette McKinnie, Chicago, Illinois...............................     6
Tameka Henry, Las Vegas, Nevada..................................    11
Jane Waldfogel, Compton Foundation Centennial Professor for the 
  Prevention of Children's and Youth Problems, Columbia 
  University School of Social Work...............................    15
Kelly Schulz, Secretary, Maryland Department of Commerce.........    21

                   PUBLIC SUBMISSIONS FOR THE RECORD

Michael Binder, statement........................................    56
Employer Attitudes to Paid Leave, statement......................    61
CLASP, statement.................................................    70
David Stacy, statement...........................................    79
Paid Leave for the United States, statement......................    83
Anne B. Mosle, The Aspen Institute, statement....................    93
AEI, statement...................................................    97

 
            LEVELING THE PLAYING FIELD FOR WORKING FAMILIES:
                      CHALLENGES AND OPPORTUNITIES

                              ----------                              


                        THURSDAY, MARCH 7, 2019

             U.S. House of Representatives,
                       Committee on Ways and Means,
                 Subcommittee on Worker and Family Support,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 2020, Rayburn House Office Building, the Honorable Danny 
Davis [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman DAVIS. The Subcommittee will come to order. Let me 
first of all welcome all of you. This is our first hearing in 
the Worker and Family Support Subcommittee in this Congress, so 
before I begin, I just wanted to welcome our ranking Member, 
Mrs. Walorski, and all of the standing Members serving on our 
Subcommittee.
    I am very much looking forward to working with all of you 
this Congress on these issues that are so close to my heart and 
so important to all of the families that we represent.
    Every day across America, parents, grandparents, and people 
of all colors and backgrounds, rural, urban, and suburban, get 
up in the morning and work hard to make better lives for their 
families. Despite these differences, these individuals 
encounter many of the same obstacles.
    They cannot find appropriate child care or they cannot 
afford it. They need to care for a parent or a child or deal 
with their own health challenges, but they cannot withstand the 
loss of income from taking time off from work. Or the jobs that 
allow them to balance work and family pay less than the jobs 
available to workers who do not have those responsibilities or 
health challenges.
    Lack of affordable child care and paid leave are not ``some 
of us'' problems. They are ``all of us'' problems, challenges 
all Americans will face at some time in their lives, from my 
district on the West Side of Chicago to the ones that my 
colleagues represent on the East and West Coasts.
    Even with recent increases, after adjusting for inflation, 
our Federal investment in child care remains roughly the same 
as it was over a decade ago, in 2006. As a result, only about 
one in six eligible children receives Federal child care 
assistance, leaving many parents facing impossible choices. 
Less than half of Americans have access to paid medical leave. 
Less than a fourth of American workers live in States where 
they can earn temporary disability insurance, and less than a 
fifth of workers can get paid leave when they need it to care 
for a loved one.
    These barriers cause stress for all workers that encounter 
them. But for many of the people that I represent--people who 
may not start out with as many skills and advantages, people 
who live in poorer communities, or people who are weighed down 
by their past mistakes or those of family members--these 
barriers trap them in poverty even though they work hard every 
day.
    I am deeply grateful that two hardworking caregivers, Mrs. 
Tameka Henry and Mrs. Yvette McKinnie, were willing to make the 
personal sacrifices necessary to travel here today and inform 
our work by sharing their stories.
    Congress has the power to remove these barriers, to level 
the playing field for working families. Just last week, the 
National Academy of Sciences released a critical report which 
found that we could reduce child poverty by 50 percent in just 
10 years by making policy changes that would cost just a 
fraction of the $800 billion to $1.1 trillion that child 
poverty costs our nation each year.
    Among the evidence-based bipartisan policies highlighted in 
the report were changes to child care funding and tax credits. 
The child care policy changes alone were estimated to reduce 
child poverty by 30 percent. I am proud to cosponsor the Child 
Care for Working Families Act, introduced by my friend, 
Chairman Bobby Scott of the Education and Labor Committee, and 
I look forward to working with him to enact comprehensive 
solutions to the child care crisis that take advantage of all 
of the tools within the our two Committees' jurisdictions.
    When it comes to paid leave, some of our States and 
communities are already showing us the way, and have taken 
action to allow workers to earn the paid leave benefits that 
they need to balance work and family. My colleague Rosa 
DeLauro's FAMILY Act, which I and many of my colleagues have 
cosponsored, would build on these successful State experiences 
to make earned paid leave a reality across the country. We are 
also fortunate to be able to call on the expertise of our 
colleague, Mr. Gomez from California, as we consider national 
action on paid leave.
    Booker T. Washington said, ``If you want to lift yourself 
up, lift someone else up.'' This Congress, I mean for our 
Subcommittee to realize his vision and to lift up the parents 
and grandparents across the country who have asked us for so 
little and have given so much.
    And with that, I am pleased to recognize the Ranking 
Member, Mrs. Walorski, for an opening statement.
    Mrs. WALORSKI. Thank you so much, Mr. Chairman. And before 
I proceed with my opening statement, I just want to tell you 
again how excited I am to be partnering with you on this great 
Committee as we work together on behalf of American families 
looking for that American dream.
    And I know that for those of you that do not know, we live 
within 90 miles of each other. We just do not share weather in 
Chicago and Northern Indiana; we share all kinds of great 
culture. So I again want to extend the invitation for you to 
come to the Hoosier land, and I cannot wait to come to Chicago. 
I am a Chicago Cubs fan.
    [Laughter.]
    Mrs. WALORSKI. So with that, thank you so much. I agree 
that at a time when we have 7.3 million job openings and 
demands for workers that is producing upward pressure on wages, 
we do need to know what is holding back individuals who are 
still not back in the workforce. Just last week when governors 
from across the country were in D.C., they raised concerns 
about the need for workers and highlighted workforce 
development challenges.
    Just this week I met with the head of Governor Holcomb's 
workforce cabinet for an update on their work to realign and 
better coordinate the efforts of the multiple State agencies 
that play a role in developing Indiana's workforce.
    Last year before this Subcommittee, we heard from Peter 
Barrett of Smokercraft, a boat maker in Indiana, who told us 
that with an aging workforce and the small pool of qualified 
workers for area businesses to recruit from, he was concerned 
about the future prospect of finding skilled workers as well, a 
critical component for the growth of his business. Since his 
testimony, the situation has only worsened for employers like 
Smokercraft. That also means this has improved even further for 
other workers.
    In my district alone, we know we need 10,000 new hires 
today, just today, to keep up with the demand of tomorrow. We 
need them right now to meet the demand of incoming orders to 
help continue our record economic growth. Competition for 
workers means increasing salaries, bonuses, and other benefits 
such as paid leave. These are the challenges, and each of those 
are also great opportunities.
    We have the opportunity to make economic and social gains 
in ways not seen in decades so families are far better off 
financially, helping to improve their overall well-being in the 
near and long term. Better wages and stable work bring along a 
host of benefits, the greatest being the positive impact on 
children who are spared the trauma that comes from unrest in 
the home.
    At the root of addressing these challenges needs to be a 
focus on human interact, engagement, support, encouragement, 
and belief in the possible, not just the assumptions about the 
probable. I am talking about jobs and opportunities with 
benefits and services for success, also known as the Jobs for 
Success Act.
    For far too long, States have taken Federal tax dollars but 
have not done enough to help families. By focusing at the 
Federal level on outcomes, we can empower caseworkers on the 
ground to focus on the needs of the families sitting across the 
table, which increasingly means recognizing mental health or 
substance use issues. To help them achieve their own vision of 
success, it is time to focus on solving the root causes rather 
than pushing complex government ideas that will only address 
the symptoms.
    Thank you to our panel of witnesses for being here today 
and for sharing your perspective. Again, I am proud to be a 
part of this Subcommittee. I look forward to the ways we can 
work together to help more Americans enter and remain the 
workforce, climb the economic ladder, and realize their full 
potential.
    With that, I yield back. Thank you, Mr. Chairman.
    Chairman DAVIS. Thank you. Thank you, Mrs. Walorski.
    Without objection, all Members' opening statements will be 
made part of the record.
    We have a distinguished panel of witnesses here with us 
today to discuss the real challenges facing parents and 
grandparents across the country and what Congress should be 
doing to support them. I look forward to learning from them 
today and having their voices guide our Subcommittee's work.
    First of all I would like to welcome Mrs. Yvette McKinnie. 
Mrs. McKinnie is raising her grandchildren while working to 
support her family in my congressional district in Chicago.
    Next, Mrs. Tameka Henry. Mrs. Henry is a mother of four who 
balances two jobs caring for a disabled husband and caring for 
her children.
    And Dr. Jane Waldfogel is an expert in paid leave and child 
care research and the Compton Foundation Centennial Professor 
for the Prevention of Children's and Youth Problems at the 
Columbia University School of Social work. Doctor, thank you.
    And finally, Ms. Kelly Schultz is the Secretary of the 
Maryland Department of Commerce. And we are indeed delighted to 
have you.
    Each of your statements will be made a part of the record 
in its entirety. I would ask you to summarize your testimony in 
five minutes or less. To help you with that time, there is a 
timing light at your table. When you have one minute left, the 
light will switch from green to yellow and then finally to red 
when five minutes are up.
    So we thank you again for coming. You are indeed welcome. 
And I would ask Mrs. McKinnie if you would begin.

        STATEMENT OF YVETTE MCKINNIE, CHICAGO, ILLINOIS

    Mrs. MCKINNIE. Thank you. Good afternoon. My name is Yvette 
McKinnie. First, I would like to thank Chairman Mr. Davis, 
Ranking Member Mrs. Walorski, and the Members of the Committee, 
for this opportunity to express my experience with being a 
grandmother and raising a young son.
    I am a grandmother. My grandson, Matthew, is 11 years old. 
And I have a 3-year-old son named Elijah. I have been caring 
for Matthew for the last two years. His mother's job relocated 
her to Indianapolis. Because we have no family in Indianapolis 
and we was not familiar with the child care up there, we 
decided to leave him in Chicago where he could finish his 
education, but then also get the structure and be raised in a 
home with ones he is familiar with.
    Then I have Elijah. Elijah is 3 years old. Elijah was 
originally supposed to have been my son's son, but we found out 
that, through DNA, he was not. So I took on the responsibility 
to continue to care for him and to raise him where he also will 
have a quality of life.
    On top of that, yes, it has been hard. I was working a 
full-time job, but because I was raising two young boys, it 
would not--I did not have--it was not in my schedule where I 
was able to give them the care. I have applied for Action for 
Children.
    Action for Children instructed me that they were only for--
I was not eligible because it was only for the parents. I 
explained to them that I have custody over Elijah and that I 
have paperwork to prove it. They stated that I was not the 
biological parent, so I was not approved for the child care.
    When Elijah turned 3, we found out that he has special 
needs. Elijah has a sensory autism and he also is dealing with 
hyperactivity as well. So because of that, I cannot just leave 
him with anyone because sometimes when he gets heightened, it 
is very hard for ones to deal with him.
    Elijah was going to an early childhood development where I 
was paying $600. That is one reason I went to Action for 
Children, to try to get resources and assistance. So after they 
instructed me that I was not able to, I had to pull him out and 
put him into the Chicago public school system, where it cut 
down some of his needs because now instead of him having speech 
therapy every week for a hour, now they had cut it down to 15 
minutes, is what he receive.
    Yes, it is hard raising even with Matthew because there are 
times where Matthew now is in basketball. So because I do not 
have anyone to help me with Elijah, I have to take him to the 
games. And sometime it becomes hard because I have to walk out, 
and then that leaves Matthew looking for me and I am not there.
    So with Action for Children, like I stated, after they 
stated it was not for myself as a grandparent, I had to do what 
I had to do, which was to downsize my job so I can continue to 
give them the quality of life. I am now employed with Life 
Changing Community Outreach, where they actually have flexible 
hours for me, where they have given me the support as well, so 
when I go and pick up Matthew, and then I am able to come back.
    My day starts at 5:00 a.m., where I have to get both of the 
boys dressed, make sure they have breakfast, get Matthew off to 
school at 8:00, and then come back to get Elijah at school for 
11:15. Because he was no longer able to go to Mrs. McKinney's 
Early Childhood Development, his time also has been cut. So 
instead of him going from 8:30 to 3:30, now he goes to school 
from 11:15 to 2:15.
    Also, I have to juggle my time. Even when I have doctor's 
appointments, I have to make sure they are actually at 8:30 in 
the morning or while they are in school. Matthew gets out of 
school at 3:30, so when he gets out of school, I take him and 
Elijah with me to the center where I work, where they are able 
to participate in the program and the activities that they 
have.
    When my job is finished there, we go home. I finish helping 
Matthew with his homework and we eat dinner, and then my day 
starts all over again when I go to bed at 11:00. And the reason 
it is late is because I have to still make sure they are 
prepared for the next day.
    I do love both of my boys and I have stepped up to care for 
Matthew so he can have the structure. And I also stepped up to 
take care of Elijah so he did not go into foster care. I am 
thankful that I did find a job that will help me with the 
flexible hours. Matthew, he is doing well. He is socializing 
with others. He loves basketball. His reading and math score 
have increased.
    Elijah still needs a little work. He now is able to say 
that he has to go to the bathroom, but when his sensory is 
heightened, it is very hard. So I continue with the struggle 
with Elijah, but he is improving. And the reason I am here 
today is because there are other family members and there are 
other grandparents. There is a total of 2.6 million children 
across the United States that are being raised by grandparents, 
other relatives, or close friends because of the parents are 
not able to care for them at the time.
    So what would have helped me was if I was able to receive 
financial assistance. Then I would have been able to keep 
Elijah in the child care where he was at where he was continue 
to get speech therapy, occupational therapy, and whatever else 
was necessary for him. Then I would have been able to keep my 
job full-time.
    I still need help, so because as a caregiver and as a 
grandmother raising two boys, yes, it becomes hard. Caregiver 
policy should not be just for the parents, but then also should 
be to help grandparents as well. Without Matthew's mom, it is 
hard, but it is also hard for Elijah as well. But I do what I 
have to do so they can continue to have a quality of life.
    So I urge Congress to support policies and ensure 
grandparents raising grandchildren to get us the help that we 
need. That is it.
    Chairman DAVIS. Thank you.
    [The prepared statement of Mrs. McKinnie follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman DAVIS. Mrs. Henry.

          STATEMENT OF TAMEKA HENRY, LAS VEGAS, NEVADA

    Mrs. HENRY. Good afternoon, Chairman Davis, Ranking Member 
Walorski, and distinguished Members of the Committee. I am 
Tameka Henry, a devoted wife and mother of four from Las Vegas, 
Nevada. I come before you today to share my story and to 
advocate for the urgent need to have real paid leave for 
families across this country.
    My husband and I have been together for 20 years. We have 
four incredible children ranging in age from 12 to 18. In 2006 
my husband became disabled. He had been working at one of the 
luxury condominiums in town, but once he became ill, they let 
him go. I was working at an assisted living place, providing 
care for those with disabilities.
    For a long while, his illness was a mystery. We did not 
know what was going on, and my children would frequently called 
me to explain that they had to call the paramedics because he 
was so sick. Each time I would have to take off work without 
pay. Then I lost that job. It was really tough because I had 
become the sole breadwinner.
    My husband finally got diagnosed with gastroparesis, which 
is an offset of diabetes. Eventually he got his Social Security 
disability benefit, but it took 6 years for that to happen, and 
it was about $600 a month. His condition often requires me to 
take time from work, which has resulted in my own inability to 
maintain employment. Every time I found a new job it was like 
starting over again. I did not have a chance to build up 
tenure. I would take jobs that have flexibility for time off, 
but always without pay. Yet I still had to pay the bills.
    Since my husband became ill, he has been in and out of the 
hospital on average 10 to 12 days per month, not to mention the 
time that I have had to take off with our children. Two of them 
have asthma. When I do the math, I estimate that I have lost 
close to $200,000 in wages since his diagnosis. Making our 
monthly bills is hit or miss, month to month, depending on his 
condition.
    This hardship has definitely impacted other areas of our 
lives together. We cannot even consider purchasing a home, 
which is a bedrock of the American dream. I have never made 
enough to pay for child care, and it was always like Catch-22 
in Nevada. If you worked and you were a two-parent home and one 
parent is home ill, they did not cover it. You do not qualify 
for child care assistance.
    Ours is an impossible situation. Do I forsake my husband's 
health and our commitment to one another to keep my job and 
earn a living? Or do I honor my family and prioritize the 
health of my husband and our children, even though it hurts us 
financially? These are the questions I grapple with every day.
    Families like mine would rather work and pay our own way. 
Unfortunately, when you have a loved one with disabilities, 
they are going to get sick and you have to be there for them.
    Today, things are a little different. I work for a small 
nonprofit. I am fortunate that my boss is empathetic and 
understanding of the deep commitment I have to my family. And 
while I no longer fear losing my job, I do have to find ways to 
make up my lost wages because my employer cannot afford to pay 
when I am off of work.
    Like many families--I am sorry--like many small business 
owners, she supports the FAMILY Act. If there were a paid leave 
fund, it would make a huge difference for her and for us.
    As a country, we should be embarrassed that in 2019, 
millions of families are forced to choose between their 
livelihood and their loved ones. If the family is the bedrock 
of our society, then why does America lag every other country 
when it comes to supporting and strengthening families?
    We can and we must change this by passing the FAMILY Act so 
working people can pool small contributions and earn a portion 
of their pay while they take the time off to care for 
themselves or their loved ones. This bill will benefit 36 
million adults who live with a disabled family member that they 
are responsible for caring for.
    Based on my experience, this bill can save our government 
money because it would mean that I am able to sufficiently care 
for my husband and reduce the number of return hospital visits 
or recurring illness.
    I became involved with Make It Work Nevada, which is part 
of the Family Values at Work Network, to fight for paid leave 
and affordable child care for myself and families like mine. 
Thanks to the work of coalitions and networks, several States 
across the country have a public insurance benefit to combat 
this problem, and I am glad to say that the sky did not fall in 
any of those States.
    Paid family medical leave is good public policy. Eight in 
10 Americans support paid family medical leave programs despite 
party affiliation or demographics. Do you know why? Because 
caring for one's family is not a partisan issue. It is an issue 
of compassion and it is an issue of love.
    I want to urge you all today to vote our American values 
and support the FAMILY Act. I hope you will adapt the 
improvements that States have made to make sure the program is 
accessible and affordable to those who need it the most.
    Thank you, Mr. Chairman and Committee Members, for allowing 
me to speak to you today.
    Chairman DAVIS. Thank you.
    [The prepared statement of Mrs. Henry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman DAVIS. Dr. Jane Waldfogel.

  STATEMENT OF JANE WALDFOGEL, COMPTON FOUNDATION CENTENNIAL 
PROFESSOR FOR THE PREVENTION OF CHILDREN'S AND YOUTH PROBLEMS, 
           COLUMBIA UNIVERSITY SCHOOL OF SOCIAL WORK

    Ms. WALDFOGEL. Thank you, Chairman Davis, Ranking Member 
Walorski, and other distinguished Members. Hello and thank you 
for inviting me to speak with you today.
    I have spent the past 25 years studying policies to support 
working families and promote child health and development. 
These policies are a pressing concern today because in the 
majority of American families, it is no longer commonplace to 
have a stay-at-home caregiver who can take care of a newborn 
baby, an ill child, a disabled spouse, an elderly relative, or 
a family member being deployed or returning from the military.
    This trend is not going to change. Most two-parent families 
need to have both parents in the labor market, and of course 
the challenges are even more acute among low-income and single-
parent families. Yet our public policies have not kept pace 
with the new demographic reality. The Family and Medical Leave 
Act provides only unpaid leave to only about 60 percent of the 
workforce. Federal child care subsidies, as we heard in the 
chairman's opening statement, reach only about one in six 
eligible low-income families who need them.
    Employer policies address some of the gap, but mostly for 
more advantaged workers. While 40 percent of employees have 
access to some paid leave they can use for family reasons, 
those who are low-income, part-time, or Hispanic are much less 
likely to be covered. Only a tiny share of employees, only 
about 10 percent, get any help from their employers in paying 
for child care, and that number has not changed in decades.
    Yet we know from a large body of research that these 
policies matter for the well-being of employees and their 
families. While much of the early research came from other 
countries, we now have more than a decade of evidence from 
California, whose first in the Nation paid family leave law 
came into effect in 2004.
    When employees have access to paid family leave, they are 
more likely to take leave to care for a family member or for 
themselves. They are more likely to be employed. They are more 
likely to have higher earnings afterwards. Mothers who have 
access to paid leave are less likely to be depressed after a 
birth. They breastfeed for longer.
    Fathers who take longer leaves are more likely to be 
engaged in caring for their children months later. When more 
paid leave is available, rates of infant mortality and 
hospitalizations of infants fall. And at the other end of the 
life cycle, so too do nursing home admissions. Again, that is 
all evidence from California.
    The evidence on child care is also extensive and clear. 
There is research from the landmark National Institute of Child 
Health and Human Development Study of Early Child Care and many 
subsequent studies, and this shows that high-quality child care 
improves children's health, cognitive development, and social 
development, especially for disadvantaged children.
    Yet too few Americans can afford quality child care, 
especially in early childhood, when care is most expensive. 
When more child care subsidiaries are available, parents are 
more likely to be employed, reducing poverty and promoting 
family economic stability. More children receive child care and 
are in care of higher quality. High-quality child care can play 
a crucial role in helping improve school readiness and 
narrowing gaps in readiness.
    Opinion surveys consistently show that Americans favor paid 
family and medical leave. They understand that the need is 
widespread, as are the benefits. That is why six States to 
date--California, Rhode Island, New Jersey, New York, 
Washington, and Massachusetts--and the District of Columbia 
have enacted paid family and medical leave laws that provide 
paid leave to care for a newborn or a seriously ill child or 
family member, and sometimes when a family member is deployed 
or returning from the military. And many more States are 
considering such legislation.
    These policies are also endorsed by employers. My 
colleagues and I have been surveying employers in States with 
paid family and medical leave laws, focusing especially on 
small employers, who are often missing from such surveys. What 
we found in three States with paid leave laws--Rhode Island, 
New Jersey, and New York--is that two-thirds of employers were 
supportive of these laws. Another 15 to 20 percent were 
neutral.
    So in summary, paid family and medical leave and quality, 
affordable child care are not just vital supports for family 
economic well-being. They are also essential for the health and 
development of our children and for the health and well-being 
of our spouses, elderly relatives, and those serving in the 
military.
    We also know that we cannot leave these essential supports 
to employers to provide because they will supply little 
coverage, especially for workers with the greatest need for it. 
And that is why the American public and employers are looking 
to the government for help.
    Thank you very much.
    Chairman DAVIS. Thank you.
    [The prepared statement of Dr. Waldfogel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman DAVIS. Ms. Schultz.

 STATEMENT OF KELLY SCHULTZ, SECRETARY, MARYLAND DEPARTMENT OF 
                            COMMERCE

    Ms. SCHULTZ. Thank you very much, Mr. Chairman. Good 
afternoon to you, and thank you, Ranking Member Walorski and 
other distinguished Members of the Subcommittee. My name is 
Kelly Schulz. I am the Secretary of Maryland's Department of 
Commerce and former Secretary of the Maryland Department of 
Labor Licensing and Regulation under Governor Larry Hogan. I am 
honored to be here today, and thank you for the opportunity to 
discuss what I believe is the way forward for workforce 
development in the United States.
    In Maryland, we take the concerns of our workforce very 
serious. We do not treat lightly the challenges faced by our 
workers and our employers. Over the years we have worked 
incredibly hard to identify ways in which the State can play a 
role in sustaining the growing jobs, and having learned that 
the best solutions are those that temper strategy with funding 
and leveraging partnership, knowledge, and experience of those 
on the field to drive innovation.
    Today I will share with you the pinnacle of Maryland's 
workforce development efforts, a program called Employment 
Advancement Right Now, or EARN Maryland. The EARN program is 
innovative and transformative. What makes it unique is that it 
is industry-led.
    Working together, we focus on industry sector strategies 
that establish long-term solutions to sustained skills gaps and 
personnel shortages, and help working families by creating 
formal career paths to good jobs. By leveraging relations with 
non-profit and community-based organizations, the program helps 
underserved populations with barriers to employment, including 
lack of transportation, homelessness, addiction, childcare 
needs, and criminal backgrounds. This collaboration is an 
important paradigm shift in workforce development, and the very 
reason that the program is a success.
    Instead of attempting to address barriers to employment 
with a one-size-fits-all approach, EARN identifies common 
workforce needs in specific occupations and then develops and 
implements education and training strategies that address those 
deficiencies. It is our partners' intimate knowledge of their 
industry's needs and their personal involvement in the 
program's design that ensure those participating in EARN 
training have the relevant, in-demand skills that drive growth.
    And it works. A recent study on the economic impact of the 
program shows that for every dollar Maryland invests, an 
additional $18.50 in economic activity is created. 
Comparatively, the national average for similar programs is 
about $3.41.
    As of October 2018, more than 5,600 incumbent workers in 
Maryland have received training, leading to new credentials, 
certifications, and skills. Additionally, 3,573 EARN 
participants completed entry level training programs. Of those 
participants, 2,971, or 83 percent, obtained employment.
    Since EARN Maryland was founded in 2014, it has transformed 
countless lives, providing opportunities that otherwise may not 
have been available. I would like to share just a few stories, 
but there are numerous.
    EARN participant Davontay completed entry level training 
and is today employed full-time in the tech industry. He was 
struggling with financial instability and homelessness, and was 
looking for a better way of life for himself and his son, when 
he learned about the NPower Tech Fundamentals program. There he 
learned valuable technology skills, and is today a full-time 
network technician specialist.
    What Davontay learned through his EARN training allowed him 
to gain financial stability to help deal with the obstacles 
that come along with being a single father. He is now building 
his experience and preparing to test for his CompTIA Network+ 
certification.
    EARN participant Joseph was living in a Baltimore homeless 
shelter when he heard about a training program through the Jane 
Addams Resource Corporation, or JARC, an EARN Maryland grantee. 
Joseph was struggling to overcome a felony theft conviction, a 
significant barrier when trying to enter the job market.
    With our grantee's influence, Joseph was given an 
opportunity to start a career in manufacturing. He even 
received a scholarship for a vehicle and help getting his 
driver's license reinstated. Joseph has since passed his 
probationary period and has earned two pay raises. He now has a 
401K and vacation time.
    There are countless other stories like these of people 
whose lives have been changed through the EARN program. We are 
proud to say that in Maryland, working hand in hand with our 
industry and business partners, we are addressing the needs of 
our workforce in a strategic and economically efficient way, 
which has proven to help workers at their point of need, 
without unnecessary spending by the state.
    With continuing investment by Governor Hogan, EARN 
continues to have a profound impact on the business community 
and job-seekers in Maryland. The Hogan Administration is very 
proud to support this program and is excited to share its 
successes in the years to come.
    Thank you again for this opportunity to speak with you 
today, and I look forward to answering any of your questions.
    Chairman DAVIS. Thank you very much, Secretary Schultz.
    [The prepared statement of Ms. Schultz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman DAVIS. And we will now begin with the five-minute 
rule, where each Member will get an opportunity to ask 
questions of the witness. And if I could ask each one of you to 
move your microphones a bit closer, it would just make it 
easier for all of us to hear everything that you are saying.
    Let me begin with you, Mrs. McKinnie. Unfortunately, your 
struggle to afford child care is all too common among 
grandparents. The Annie E. Casey Foundation estimated that only 
17 percent of working grandparents get child care assistance.
    You mentioned in your testimony that you had to give up a 
full-time job because it was not flexible enough you to care 
for both of your boys. I think I understand that your prior job 
offered you to work a different shift. Could you tell us about 
the option, and why it was difficult to find child care under 
that arrangement?
    Mrs. MCKINNIE. Yes, I can. The other shift they wanted me 
to work was from 12:00 midnight until 7:00 a.m., which means 
that I would not have been there to care for the boys, but at 
the same time I would have to find someone to assist me with 
being there with them at nighttime.
    Also, because Elijah sometime wakes up at night, with night 
terrors, it is very hard for someone actually to be there to 
assist him because there are times he is waking up looking for 
me.
    Chairman DAVIS. That is indeed understandable, so thank you 
very much.
    Mrs. Henry, you mentioned that two of your children have 
asthma. And of course research tells us that the same thing is 
common sense, that parents of children with chronic illnesses 
have a harder time working and have less time for themselves.
    In addition to the pay you lose when you need to stay home 
and care for your children or your husband, are there also 
additional costs that would strain the family budget?
    Mrs. HENRY. I am sorry. You said additional cost?
    Chairman DAVIS. Yes. In terms of chronic illness that you 
have to deal with?
    Mrs. HENRY. Right. And just even missing time off. And 
early on in my husband's--when he first became disabled, there 
were different medication costs. Some things were not covered 
by the insurance companies. So there were times where we had to 
pay out of pocket or a copay would be really high.
    And so I had to make the decision of, do I pay for medicine 
or do I pay for food? Of course we pay for the medicine, but 
then I would have to like really utilize food pantries that 
were within our community.
    Chairman DAVIS. Yes. I could see how that would indeed be a 
disruptive hardship, and so we understand that. And thank you 
for it.
    Dr. Waldfogel, last week the National Academy of Sciences 
listed improved subsidies for child care as one of the common-
sense policies that would significantly reduce child poverty, 
and laid out multiple pathways by which we could reduce child 
poverty by 50 percent within 10 years.
    Can you tell me what your research and that of others shows 
about how it changes a child's path if his or her family is 
lifted out of poverty, and a little about the consequences if 
the family remains poor?
    Ms. WALDFOGEL. We now know a lot about the long-run effects 
of child poverty. And one of the most horrible things is that 
the most detrimental effect of poverty is when it occurs early 
in childhood. That is when children are most damaged by 
poverty. So child care is especially important because it 
reaches children early in childhood, when child care is most 
expensive and when poverty can be most detrimental.
    On the other side, if we can address child poverty and cut 
child poverty in half, which the National Academy of Sciences 
report showed is absolutely feasible, we not only benefit 
children today, but there are intergenerational benefits 
because those children when they grow up, they are more likely 
to graduate high school. They are more likely to be in good 
health. And they are more likely to have higher earnings and be 
employed as adults. So that then helps the next generation of 
children. If we are ever going to solve the problem of child 
poverty in America, we have got to do it intergenerationally, 
and we have got to start in early childhood. So the child care 
subsidies are just critical.
    Chairman DAVIS. Are there any other ways that you can think 
of that you might be able to make assumptions about individuals 
who lived poverty-stricken as they have grown up and become 
adults?
    Ms. WALDFOGEL. We have a lot of good evidence about this--
from what we call natural experiments. There is a lot of 
research now because we have a lot of variation in policies. So 
we have examples where children have benefitted from increased 
income transfers, and the family has been moved out of poverty.
    So we know what those long-run effects are, and they are 
improvements in education, they are improvements in earnings 
and employment, improvements in health and mental health, you 
name it, and then improvements in parenting for the next 
generation. So the evidence is really good. I will be happy to 
submit some more materials after the hearing because there is a 
lot of work on this. *Chairman Davis. Thank you. Thank you very 
much.
    And Secretary Schultz, I have a great deal of interest in 
returning citizens, individuals who have been incarcerated, 
people who have fallen off the track trying to make their way 
back. I see that the State of Maryland is doing work to expunge 
records.
    Are there special set-asides for that activity in terms of 
budgeting for it? Or is it just something that individuals who 
might be working in certain areas do as a part of their work? 
Is there any special set-aside money for that activity?
    Ms. SCHULTZ. Mr. Chairman, I can get back to you on the 
specifics of any budgetary set-aside specifically for ex-
offenders and expungement rates. That is not something that I 
would have dealt with eitherat the Department of Labor or at 
the Department of Commerce. But we can get you that 
information.
    But what I will say is that through these EARN-type 
programs, these training programs, being able to have those 
wraparound services, so there is free legal services involved 
in part of the case management, has been something that has 
been a very successful part of EARN Maryland.
    Chairman DAVIS. Thank you. Thank you very much, and I am 
delighted that the State of Maryland is engaged in that 
activity.
    Mrs. WALORSKI.
    Mrs. WALORSKI. Thank you, Mr. Chairman. I would also like 
to insert in the record an article by the Associated Press 
today that just continues to further exemplify the problem in 
child care, daycares that kind of thing. If I could do that, I 
would appreciate that.
    Chairman DAVIS. Without objection.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. WALORSKI. Thank you. I would like to share the 
experiences of some Hoosier situations in my district, but I 
want to again thank you ladies for your expertise. Thank you so 
much for being here, and I definitely appreciate the stories 
that you shared with us today.
    What I am hearing is that employers are desperate to make 
their employees happy so they can keep them, and they are 
looking for ways to do that, just beyond wages, what else can 
they do to incentivize employees to stay. We have employers 
that are surveying their workers, asking them what they want. 
What do the employees want to make their job far more 
productive?
    And in one example, to be more family-friendly, workers 
actually asked for a four-day work week, and the employers 
accommodated their request. Now, it will cost the employers a 
little bit more to do that, but in the long run, with even the 
greater burden, it still was a change that could be made now 
because the economy is on an uptick. The economy is doing well. 
This was a good time to make an adjustment.
    Secretary Schultz, what do you see going on in Maryland 
with the relationship between employers and employees?
    Ms. SCHULTZ. I would say first, and thank you, Madam 
Congresswoman, I think what we see is a relationship that is 
being built. And I think that that is being built because of 
the worker shortage, because of the gaps in what the industries 
and businesses and every industry are seeing, not only in the 
State of Maryland, but obviously across the country, with low 
unemployment rates.
    So businesses are every day being able to provide different 
types of incentive programs for their employees. What has 
become a little bit more difficult, from what I have seen, is 
the smaller of the businesses being able to keep up with some 
of the benefits and the incentive packages that the large 
businesses are able to move forward.
    In the State of Maryland, we do have legislation--we have 
statutes on the books--about sick and safe leave, paid sick 
leave opportunities, but for only businesses that are of a 
certain size. So the governor had put forward legislation and a 
tax credit for the smallest of the businesses for them to be 
able to offer those types of benefits so that they can be 
competitive in the job market as well for their employees.
    But what we also see is the need for increased professional 
development because where somebody may be coming in at an entry 
level position, being able to have the employees offered them 
affordable training for those incumbent workers to move up 
through that business environment and within that industry is 
very important, not only for being able to fill the skills but 
for the retention of the employees because they like to be 
challenged in different parts of those different types of 
industry sectors as well.
    And that is one thing that EARN Maryland does. It helps to 
upskill, recertify, provide advanced training to those existing 
employees so that they can stay employed with those employers.
    Mrs. WALORSKI. I appreciate it. And when we talk about 
disincentives for State and local action, as I understand, EARN 
Maryland is completely State-funded, with the provision of 
wrap-around services and the type of job training, local job 
training, provided.
    I would have thought there might be some Federal workforce 
funds to support your efforts. Can you tell me why that is? And 
if we try to run in from the Federal level to legislate, what 
should we be mindful of?
    Ms. SCHULTZ. Flexibility. One of the reasons why it is 
solely State-funded at this point in time is that we are able 
to utilize those funds for every demographic. At the Federal 
level, there are several workforce programs, dollars that are 
coming from several Federal agencies, that have requirements on 
how that fund is being distributed and to what demographic it 
is being distributed.
    For example, you are going to get funds from the Department 
of Labor, you can get funds from the Department of Agriculture, 
from the Department of Education, Health and Human Services. So 
there is a wide variety. And with each of those funding 
streams, you have a very specific use in what you have to 
utilize.
    With the EARN program, with our State dollars, we are able 
to bring in any worker that wants to be trained with the 
possibility of the job, more than a possibility; it is a 
requirement of the program that jobs are created after those 
training programs. And we can utilize it on all of those 
demographics, whether it is the disabled, whether it is the ex-
offenders that are coming in for a second chance, whether it is 
somebody that is on unemployment insurance, or somebody that is 
receiving benefits through TANF or SNAP.
    Mrs. WALORSKI. I am just curious. I am very much looking at 
a different kind of case management reform, putting people back 
in the lives of people to help and not just having people that 
are a number and are running things through the system.
    I am just curious. In the EARN program, do you have people 
actually one-on-one, almost like social workers and advocates 
on behalf of people to help make the transition so vulnerable 
people can really make the American dream for themselves?
    Ms. SCHULTZ. We really do. Because of the way that the 
stakeholder groups are set up for each of the partnerships--
there are 78 partnerships across the State--each of them have a 
separate training program. Each of them have a separate 
industry sector group, businesses that are involved with that. 
And each of them have a separate community or nonprofit 
organization that is working directly with them.
    And that community nonprofit organization is there to be 
able to provide that guidance. You have the trainer that is 
giving them the skills, but then you have the community mind 
that is coming in to look at the rest of the case management, 
which we call that, to make sure that those barriers to 
employment are taken care of prior to the job.
    Mrs. WALORSKI. I appreciate it. Thank you so much.
    Mr. Chairman, I yield back. Thank you.
    Chairman DAVIS. Thank you very much.
    Representative Sewell.
    Ms. SEWELL. Thank you, Mr. Chairman and Ranking Member, for 
this really enlightening panel. I think that it is really 
important that we get to the bottom of why it is that, as an 
industrialized Nation, we are one of the very few that do not 
have paid family leave.
    I want to thank all of our panelists, but I especially want 
to thank the two ladies that have really shared their own 
personal stories. I represent Alabama's Seventh District, which 
is Birmingham, which is a big city. But it also includes my 
home town of Selma, Alabama.
    And many people know Selma because of the civil rights 
movement and the bridge. But it is a town of 19,000 people. And 
I had a personal crisis similar to the crisis that you, Mrs. 
McKinnie, and you, Mrs. Henry, talked about. My dad--I am the 
oldest and the only girl--and my dad--I am a Daddy's girl--
suffered a series of strokes that left him in a wheelchair.
    And my mother--both my mom and dad taught in the public 
school system of Selma for over 30 years, so they had what we 
like to say is good insurance. They had good insurance. And my 
dad had a series of massive strokes; the last one left him in a 
wheelchair. But because he had good insurance, he was 
airlifted, saved his life.
    But it changed our family dynamic because my mom, who was 
the high school librarian and loved her job, and was on the 
city council in Selma and loved that job, had to make a 
decision about whether or not she could continue to work and 
care for Dad.
    And so, Mr. Chairman and Ranking Member Walorski, I really 
want to make sure that when we are talking about paid family 
leave, we are talking about comprehensive paid family leave, 
not just for new moms and fathers, but also for caregivers in 
all the forms that they occur.
    My mom left her job. She had tenure. She had a good 
retirement benefit. But she was not ready to give up, at the 
age of 62, her job that she loved so much. But someone needed 
to take care of Dad. And while I am very grateful that we had 
the ability for her to do that, it did change our family 
dynamic.
    At the end of the day, they were very proud people, and 
they did not want the rest of the small community to know how 
bad Dad was. Dad was the high school basketball coach, and he 
was a legend in his own mind. But he also won six State 
championships and was a towering figure in our community.
    And I at the time was a practicing lawyer. You do not 
realize how you are free to be who you are when everything in 
your life is going well and people who are your support system 
are going well.
    So I really wanted to just say that your story is very--it 
is especially hard for low-income families to bounce back when 
one has a family crisis like that. And when you are a solo and 
you are the sole breadwinner within the household, that is even 
harder.
    And so I want to say hats off to both of you ladies for 
making it in America in spite of. And we, as Members of this 
august body, need to do something to make sure that we are 
incentivizing employers to have paid family leave. It is great 
that we have FMLA, and I was able to take some time off from my 
job to go back home to Alabama and to help with my family--
unpaid.
    But I also saw my parents struggling to find good home 
care. No one treated my dad better than my mom. But the reality 
is, especially in rural communities, there are very few people 
there who can actually be a care provider that is not on drugs, 
that is going to be timely, reliable, that you can actually pay 
a decent wage so that that person can provide for their family.
    We as a society have to take a real interest, not just the 
employer, but we in government. That is why I want to commend 
you, Secretary Schultz, for Maryland seeing the importance that 
the role the State government has in creating--in closing that 
working gap.
    So I think in the few remaining seconds that I have, I 
would love to hear from you, Mrs. McKinnie, or you, Mrs. Henry, 
about what it would mean to you if your family had paid family 
leave, what financial stability that would offer you ladies as 
caregivers.
    Mrs. HENRY. Well, thank you for sharing your story. I 
really appreciate it. I know that if we had paid family medical 
leave very early on in my husband's fight to find out what was 
wrong with him that we would be so much further along right 
now.
    I honestly feel that both of us would be full-time 
employed. I feel that without having the time off to follow up 
timely with--to follow up timely with different testing that he 
went through, to follow up----
    Ms. SEWELL. Perhaps you would be a homeowner by now.
    Mrs. HENRY. Right. I know I would. I think that not being 
paid while I was off, we lost a lot of ground. Right? I think 
if I had the opportunity to be off with him very early on and 
he as well, we could have probably gotten his diagnosis a lot 
sooner, not having to wait three years. Right?
    We would have been able to afford to travel out of town, to 
go see the specialists that were recommended. We started to do 
that. We did go to California a couple of times. But we were 
not able to afford to go continuously. So I feel deep down in 
my heart that we would be way further along than we are now had 
I had the opportunity to have paid leave very early on in his 
illness.
    Ms. SEWELL. Thank you.
    Chairman DAVIS. Thank you very much.
    Mrs. HENRY. You are welcome.
    Chairman DAVIS. And a moment of personal privilege. I must 
confess that it was not just in his mind. I happened to run 
into your niece over the weekend when your aunt----
    Ms. SEWELL. Aunt, over the weekend.
    Chairman DAVIS [continuing]. Over the weekend.
    Ms. SEWELL. My dad's sister.
    Chairman DAVIS. And she shared with me about your father. 
And they had a pet name that they called him.
    Ms. SEWELL. That is TMI. Too much information.
    [Laughter.]
    Chairman DAVIS. Good.
    Ms. SEWELL. But I say that to say that it became a 
community project to help my mom and dad. But it was not enough 
that they had good insurance. They needed wrap-around services. 
They needed help in the community. And it is okay to raise your 
hand to say you need help.
    So often our teachers and our coaches are the ones in the 
community that become a surrogate father for so many. And my 
dad lasted 14 years. He passed last year. But for 14 years 
after that massive stroke, he continued to live. And I know it 
was because he had so much help.
    So I think it is important for us, as Members of Congress, 
to remember that we all have a role to play in making sure that 
our communities are healthy and strong. And that starts with 
making sure that families are healthy and strong.
    Chairman DAVIS. He was a known entity.
    Mr. Reed.
    Mr. REED. Thank you, Chairman, for that. And Terri, thank 
you for sharing. As a Republican Member over here, I will share 
our story because we all journey down similar paths. I am the 
youngest of 12. I have got eight older sisters and three older 
brothers. And my father passed when I was 2.
    So I had a powerful female influence in my life in my 
mother, who was a single mother, that got thrown that life 
curve ball. And that is why I do believe there is a role of 
government in these situations where these circumstances occur.
    And Mrs. McKinnie and Mrs. Henry, your evidence of folks 
that--we so appreciate showing that how you can overcome that 
adversity and prosper. And so we share the commitment. And what 
I see is a common theme here, and it was something that was 
taught to me by my mom--the power of family. The power of not 
necessarily government always being the cornerstone of these 
relief structures; government has a role to play. But you 
cannot lose sight of the power of the family.
    And you cannot lose sight of the power of the community. 
And you cannot lose sight of the power of work and what that--
because each and every time you spoke right now, Mrs. Henry, 
you are talking about getting back to work and enjoying that 
American dream of getting a job, getting a job and getting a 
home, that you are striving to get. And that comes through hard 
work and the dignity of work.
    And so I was proud, as a Republican Member, one of the 
first and only Members, to go on the Republican side up to 
Boston last week. I went to Chelsea. I went to Chelsea, an 
inner city type of community. It was a top three community 
about 10, 12 years ago, one of the most dangerous communities 
to live in in America.
    And because of--and I firmly believe--because of an 
organization known as Roca, I wanted to go there firsthand to 
meet Molly Baldwin and see the inspiration and what she is 
bringing to that community. And now Chelsea is not on the list 
of dangerous communities in our country.
    And what I saw there as I did a ride-around with those 
folks, I saw a community where you had trust, where you had a 
relationship amongst all the stakeholders who are working hand 
in hand with community, with government actors. And I will just 
tell you, I so look to duplicate that success story as we go 
forward.
    And one of the things that was clear to me is they were 
really trying to measure outcomes in a different way. It was 
not just about money going through the door or through the 
program or through the office. It was about measuring outcomes 
of how it improved lives that were coming through that door.
    And so what I am very interested in maybe from the panel 
here today--and maybe, Ms. Schultz, we can start with you, but 
anyone--how would you design a system so that we are measuring 
outcomes in a positive way rather than just the number of 
people coming through the door, the number of dollars that are 
going out the door?
    Is there any thought process by any of you that you would 
offer me in regards to--and us as legislators to try to measure 
these programs in a new way to really look at those outcome 
factors? Anyone?
    Ms. SCHULTZ. I am happy, Congressman, to see if I can 
tackle that question. But I am sure that the other ladies on 
the panel may have some input as well.
    I know that particularly in the State of Maryland, we are 
measuring outcomes. It just so happens to be through the 
effective use of the tax dollar and what we are getting back 
from our investment. And because we know that we are getting 
roughly $18.50 back on every dollar that we invest, the 
methodology that is used in order to be able to track that is 
dependent on the human outcome after the training.
    It is who is getting a job? Who is coming off of benefits? 
Who is being able to save money to buy a car? Who is being able 
to save money to buy a house? Who is with a company that may be 
able to provide better benefits because you are in an employee 
status with a company that may have the ability to offer those 
different types of benefits to their employees over a longer 
period of time, and to continue to be able to provide 
professional development training moving forward so that theirs 
is always an advancement.
    And I think it is really important to understand, when we 
are talking about creation of jobs, we are talking about 
creations of careers and professional development for a 
lifetime. And that is the makeup of what we see is the most 
important part of the success of EARN.
    Mr. REED. I so appreciate that.
    Doctor? Any thoughts on how we can measure? And then maybe 
Mrs. Henry and Mrs. McKinnie real quick at the end.
    Ms. WALDFOGEL. Just to say that we are getting better at 
measuring things all the time because the data is getting 
better all the time. And as you probably know, there has been 
an explosion of work on administrative data and linking to big 
data sets. So our capacity to look at hard outcomes and 
measurable outcomes is just getting better all the time.
    Mr. REED. Based on the innovation and the technology. That 
is how.
    Ms. WALDFOGEL. Yes. But even now, if you think about the 
work that has been done in California following their 
comprehensive Paid Family Leave Act, we have outcomes on 
employment and earnings and weeks worked and hours worked for 
both men and women. It used to be you could not look at 
paternity leave because too few dads took it, and they were 
out--blink and you miss them because they are not out very 
long. But we now have research on dads taking paternity leave.
    Mr. REED. That is so good. So----
    Ms. WALDFOGEL. We are doing work now on people taking leave 
when they have disabled family members or elder family members. 
They have been so neglected in this research. And I am learning 
something as a researcher. It turns out there are great data 
sets. I just had not used them before. So that is actually what 
we are doing now.
    And then in the child domain, we can look at mental health. 
We look at kids' test scores, infant hospitalizations, birth 
weight, you name it, breastfeeding. Because it not just who is 
using the leave. That is the first order question.
    It is: So what difference is it making in families' lives? 
Are people more able to stay in employment? And some of it is 
super-creative. I have mentioned this nursing home study. That 
is not my research, so I am touting somebody else's study. 
Super-creative.
    So California passes family leave, and nursing home 
admissions go down because you have an elderly relative--it has 
happened to all of us--somebody breaks their hip. They need 
rehab. And do they get care at home with somebody arranging it 
for them, or do they go into a nursing home, which is the worst 
possible place?
    Mr. REED. Well, thank you, Chairman. I know my time is 
expired. But I think there is common ground there measuring new 
outcome data, discussion it is good to hear the data is out 
there.
    Ms. WALDFOGEL. Yes.
    Chairman DAVIS. Thank you, Mr. Reed.
    Mrs. Murphy.
    Mrs. MURPHY. Thank you, Mr. Chairman. And thank you to the 
witnesses for your testimony. Mrs. McKinnie and Mrs. Henry, I 
appreciate you sharing your stories. Your strength is 
inspiring. You have worked so hard and clearly sacrificed so 
much for your loved ones. It is clear to me that you would do 
anything to help your families.
    And I think Congress should be thinking about bipartisan 
ways in which we can make your lives a little easier. And I 
think that is why we are here today. And I cannot help, when I 
listen to your stories, but to think about my own family story.
    We escaped Communist Vietnam when I was just a baby, and 
were relocated to Virginia by a Lutheran Church. And in those 
early days of setting up here, my parents had to work multiple 
jobs just to be able to afford basic child care for me and to 
make ends meet.
    And so many decades later, I still hear similar stories 
from many of my constituents--mothers, fathers, and other 
caregivers in my district who struggle to make ends meet. They 
work hard. They are playing by the rules. But they really 
struggle to provide for their families.
    Those with young children in particular face real 
challenges. For them, child care is a necessity. But high-
quality child care is expensive and out of reach for many 
families. And some families have no choice but to sacrifice 
quality for affordability, and their children's development 
pays a price for that.
    Other parents are compelled to frequently miss work or to 
leave the workforce altogether because they cannot find a child 
care option that meets their needs and their budget. And in 
fact, only 30 percent of Florida families can afford infant 
care.
    And so I have stated the problem. So, what is the solution? 
The main ways that the Federal Government helps working 
families access child care are TANF, the Child Care and 
Development Fund, and two provisions in the Internal Revenue 
Code, a tax credit for child care and an income exclusion for 
employee-sponsored child care.
    And each deserves attention, but I would like to focus on 
the tax provisions. Chairman Davis has done outstanding work in 
this area. And following his lead, Republican Congressman Jason 
Smith and I will soon file a bill, and Senators King and Burr 
will also file an identical bill in their chamber.
    The bill would basically increase the tax credit and make 
it refundable. So it helps lower-income workers who cannot 
really take advantage of the credit the way it is structured 
now. The bill would also increase the income exclusion. So 
workers at participating firms could set aside more of their 
earnings to pay child care expenses while reducing their 
Federal tax liability. In the last 25 years, the cost of child 
care has increased over 170 percent, and yet not much has 
changed about our Tax Code as it relates to that.
    Professor Waldfogel, do you think it is important for 
Congress to consider bipartisan ways to enhance the two Federal 
tax provisions aimed at helping working families afford child 
care?
    Ms. WALDFOGEL. Yes. Absolutely. And I think it is an area 
where, as you said, there is a lot of bipartisan agreement. And 
I think there are good intentions. The intention is for these 
tax credits to be available to low- and middle-income families.
    And I think many people are surprised to learn that they 
are not--because they are not refundable, because they are too 
cumbersome, because you have to be using regular child care 
arrangements to benefit from them. And as we have heard, often 
the arrangements are unstable and work is unstable.
    So I think once we understand that, hopefully there is more 
will to extend them and make them available to low- and middle-
income families. If you are very low income, you can get 
subsidies. If you are at the high end, you can pay for child 
care. It is the middle income families and the working poor 
families who are really struggling. And child care subsidies 
are so limited that extending the tax credits would be a 
fabulous thing to do. So boy, I applaud what you are doing.
    Mrs. MURPHY. Thank you. We certainly hope it is a step in 
the right direction.
    Another bipartisan goal is for every child to have a fair 
shot at the American dream regardless of how much money their 
parents earn. Professor, can you explain why access to good, 
affordable child care for families all along the income 
spectrum is so important if we want to make this dream a 
reality?
    Ms. WALDFOGEL. Well, I have talked about the detrimental 
effects of poverty in early childhood. And these are especially 
pronounced when it comes to school readiness. We have got 
children from low-income, low-SES families coming to school a 
year behind their peers from higher-income, higher-educated 
families.
    I do not know how teachers can do their job and produce 
equal outcomes for children when you have got children coming 
in a year behind their peers. And what is the best single way 
to address that kind of school readiness gap? It is high-
quality preschool.
    Otherwise, if you leave preschool to the market, affluent 
people will buy really high-quality care. Middle income people 
will do the best they can. But the best they can--I mean, child 
care is just completely unaffordable. And low-income families, 
if they win the lottery and get a subsidy or get Head Start, 
will get some provision. But otherwise, they will do the best 
they can.
    So it should not be surprising to us that children are 
coming to school so unequally prepared. But what a tragedy, and 
completely preventable.
    Mrs. MURPHY. Thank you very much.
    Chairman DAVIS. Thank you very much.
    Ms. WALDFOGEL. Why would we run a lottery with access to 
child care? This is just--we do not run a lottery with access 
to a tax deduction or with access to other benefits. If you are 
going to pick one thing to run a lottery------
    [Laughter]
    Chairman DAVIS. Thank you.
    Mr. Estes.
    Mr. ESTES. Thank you, Mr. Chairman. And I want to thank all 
the witnesses who are here today sharing your personal stories 
or things that you have seen that are actually happening in the 
real world now.
    As we are meeting today, our economy is booming, and it is 
at historic levels, actually. In fact, for the first time in 
history, we have more jobs than we have job-seekers. And it is 
great news, but it does present challenges to some of our 
workforce development, and making sure that we are preparing 
people with the skills that they need to compete for today and 
in the future. And one of these things that is most important 
about this is we want to make sure that all workers and all 
families have the opportunity to participate in this growing 
economy.
    Secretary Schultz, you mentioned in your testimony that the 
EARN Maryland program partners work with industry leaders to 
help establish some of those long-term solutions to worker 
shortages. In my district in Wichita, Kansas, we are known as 
the air capital of the world. We have over 91,000 employees 
dealing with aviation issues throughout the State of Kansas.
    And today we are seeing a critical shortage of workers to 
actually fill some of those positions, and some of them because 
of their life issues that are impacting people. And so I know 
the EARN Maryland program has been successful in Maryland. Is 
that a program that we could repeat in other States like Kansas 
to help get more workers in the workforce?
    Ms. SCHULTZ. Absolutely. Absolutely. And I think I 
mentioned that there were 78 programs in the State of Maryland 
right now, and growing. The more money we put into it and 
expand into different areas, we are able to concentrate on the 
industry needs.
    So if in Kansas there is a group of industry sector 
businesses all around one particular area that have one 
particular need in a skill for the ability to fill a gap within 
that industry, then they come together. They say, ``This is 
what we need. This is the type of credentialing that we need. 
This is the curriculum that we need in order to be able to do 
that.''
    They partner with a training program, and also a community 
nonprofit organization, to be able to bring those individuals 
to those training program. And then those businesses hire 
directly from the training program. So whatever that industry 
is--in Maryland we have everything from construction to 
cybersecurity, which is one of Maryland's biggest growing needs 
at this moment in time, and everything in between, healthcare--
and each part of our State has a different need, and each 
industry in those different parts of the State have a different 
need.
    But I would say particularly, Congressman, in your 
particular area of that industry, of aeronautics and aerospace, 
there are so many different levels of expertise that you need 
to have going into that particular industry. It is not one set 
of skills.
    So the program could be developed at the very beginning 
stage, being able to bring in that entry-level employee, and 
then providing those incumbents training to be able to stay in 
that industry and for the businesses to retain them but 
continue to move them up the ladder where the skills may be 
needed in the future.
    Mr. ESTES. Thank you.
    Ms. SCHULTZ. You are welcome.
    Mr. ESTES. You also mentioned in your testimony that there 
was an $18.50 return for every dollar invested, and that the 
comparable average across the Nation is only about $3.40. I 
served as Kansas State Treasurer prior to coming to Congress, 
and so obviously, talking about numbers and talking about good 
returns is something that is important to me.
    I am sure there are lessons that Maryland has learned from 
going through that that helped accomplish that. How can we 
capitalize on some of those lessons learned and some of the 
benefits you got out of that, plus I assume that also freed up 
funding for other programs in the State to help make those 
programs a success as well.
    Ms. SCHULTZ. Yes. I totally agree with you that being able 
to track and to be able to monitor the program is very 
important. I think what we have been able to do differently--
because there are Federal programs, obviously, that are tracked 
and monitored, and we have to be able to emphasize and hit the 
marks of where we need to be to continue with, for example, 
U.S. Department of Labor, what the requirements are there.
    I think, differently, with the EARN being able to track it, 
is that we are definitely tracking the people with the 
performance, making sure that we have the outcomes of the 
stories that you may have heard here today and the stories that 
I have shared in my written testimony, many other stories that 
are there.
    But I do not think it should be a bad word, when we talk 
about government, whether it be the Federal Government, State 
government, or local government, what is our return on 
investment of the taxpayer dollar? And here being able to 
legitimately say that we have this great level of return, it is 
not in the form necessarily of money coming back to the State, 
but it is money going into the overall economy of the State.
    It is the money that is going into the tax revenues. It is 
the money that is going into the paychecks of those individuals 
and being able to then go into their local communities and 
spend the money that they have, and also not having to collect 
other types of benefits from those other government entities 
that they may have been collecting from prior to.
    Mr. ESTES. Thank you, Secretary, and thank you for all the 
witnesses today.
    Mr. Chairman, I yield back.
    Chairman DAVIS. Thank you. Thank you very much.
    Mr. Gomez.
    Mr. GOMEZ. Mr. Chairman, thank you so much for having this 
important hearing. I am very excited about it. I have a 
personal story as well that falls in line with some of you when 
it comes to a family emergency. When I was 7 years old, I got 
pneumonia, and I ended up in the hospital for about a week.
    My parents worked five to six jobs to make ends meet. We 
did not have health insurance. They took time off to make sure 
somebody was there every moment of the day. So in a combination 
of the lost wages but also the fact that we did not have health 
insurance, that one-week stay almost bankrupted my family. And 
it did put a huge financial strain on my family.
    I always tell people, how do I know? Because my siblings 
were really mad when they were not getting Christmas gifts that 
year. So it is something that really motivated me to get 
interested in healthcare as a whole, especially when it comes 
to paid family leave. So to the witnesses, thank you for 
sharing your story because it does provide perspective that 
everybody needs to hear.
    Before I get into it, I sometimes feel that we are trying 
to set up a debate, either workforce or paid family leave. And 
just let's get to the point. Ms. Schultz, do you believe it has 
to be job training or paid family leave?
    Ms. SCHULTZ. Do I believe it has to be job training or paid 
family leave? I think that there are many, many programs out 
there----
    Mr. GOMEZ. That is a yes or no question.
    Ms. SCHULTZ. I do not think it has to be one or the other. 
I think that you have to have an----
    Mr. GOMEZ. Okay. Good. Because neither do I. Right? And I 
do not want us to think that it has to be one or the other. Job 
training is crucial. Crucial. So the program you are running 
seems very impressive. I would love to learn more about it. But 
it is not one or the other. That is one of the messages I want 
people to walk away with.
    Also, to Dr.--how do you say your name again?
    Ms. WALDFOGEL. Waldfogel.
    Mr. GOMEZ. Waldfogel. Is a person who is not working 
eligible for paid family leave?
    Ms. WALDFOGEL. No.
    Mr. GOMEZ. So only a person that is working, either self-
employed or not, is the only person that is eligible for paid 
family leave? So this is something I want people to know. This 
is not a handout. This is something that is being taken out of 
their paychecks, revenue, into a State--oftentimes State 
disability insurance fund, which it is a social compact, and 
they get to use it when they need it.
    Right? That is one of the things I really want people to 
walk away with. This is not a handout. They paid into it and 
they deserve to be able to use it. That is the paid family 
leave program that I know about.
    As you all know, California has been a leader on this 
issue. It started in--actually, it was passed in 2002, 
implemented in 2004. And talk about research and learning from 
our history. There was a report in 2014 based on the 10-year 
anniversary, and it actually laid out a lot of weaknesses and 
improvements that we could do on paid family leave.
    Can you share some of the insights from your research 
related tool the elements of California's program that have 
worked well or those that could be tweaked to make the programs 
even better?
    Ms. WALDFOGEL. Yes. It is a really good question. I think 
we have learned so much from California. And I just have to 
say, I think they have done a fabulous job administering the 
program. But that said, there are things that you can learn 
from it.
    So I think one of the first concerns they had had to do 
with take-up, just awareness of the program and take-up. They 
had outreach, but there were still numbers of Californians, and 
especially in low-income communities, who did not know about 
the law. So that is important to know about.
    And every State since then has put more money in for 
outreach and making sure that--I knew when the law turned on in 
New York State because suddenly, in the subways, they were 
blanketed with ``New paid family leave.'' And the pictures 
showed fathers and people taking care of their grandparents and 
caring for a military family member, to make clear that it was 
not just about maternity and paternity. So New York was able to 
learn from California.
    I think there were also some concerns about the replacement 
rate being too low for low-income families. It is tough, as we 
have heard. It is very tough to take leave off without pay or 
with low pay, and the replacement rate in the first few States 
was kind of low. So that was a concern.
    Mr. GOMEZ. No, I thank you for bringing that up. Actually, 
my bill in 2015 and 2016 increased the wage replacement rate to 
address that issue, the equity issue, because most of the 
people that were using it were people that were making $82,000 
or more a year. Right? Not necessarily low-income workers.
    And just for the fact, before I run out of time, this does 
not have to be a partisan issue. I had Republicans actually 
vote for the bill when I was in the legislature. So maybe they 
did not vote for the 2002 version when it was the first idea, 
but they voted to tweak it, and it was in response to their 
constituents' request, to have something that they could 
actually access.
    So thank you so much to the witnesses. I yield back, Mr. 
Chairman.
    Chairman DAVIS. Thank you very much.
    Mr. Wenstrup.
    Mr. WENSTRUP. Thank you very much, Mr. Chairman, and thank 
you all for being here today. These are issues that I am very 
passionate about. And I like that we are here to try and 
explore the innovation of ideas to try and solve American 
problems.
    As a doctor, the health and well-being of our citizens is 
important. I actually ran for Mayor of Cincinnati several years 
ago and I lost, and my opponent called me a few months later 
and said, ``I have an opening on the Board of Health and I 
would like you to serve there.'' And it was a great opportunity 
to engage at that level.
    I served on the VA Committee, and recently we were able to 
get through compensation for family caregivers that are caring 
for eligible disabled veterans. You talk about the savings--
that care in the home. And also, who loves you more? Right? 
Than the person in the home. So these are things that we are 
looking at, and some of it is taking place.
    In my district, during the Obama Administration, they 
implemented something called Rural Impact, and 10 counties in 
the country were selected for this trial. And it gave them more 
local authority, more local flexibility, to do things. If you 
look at those in need, amongst the needs you have are 
nutrition, housing, healthcare, and when you are dealing with 
the Federal Government, they are all over the place, as opposed 
to working with a case manager that can make a difference right 
then and there.
    So she had that ability, the case manager, and she 
introduces me to a couple. They have six kids living in a one-
room cabin. And he says to me, ``I cannot take the third shift 
job because I have nowhere to sleep when I get home.'' So she 
was able to quickly get them into a home with a couple 
bedrooms. He goes to work; she goes to work. She gets the child 
care that they need. They are on their way.
    And this is what I would like to see more of, a local level 
where you can actually engage. You go to their home. You meet 
your family and see the situation that you are in and be able 
to make changes that can get you well on your way.
    Now, she said they may run into the cliff effect, where 
they worry about making too much and the kids lose their 
Medicaid. That is another story that we need to address in this 
country, but nonetheless.
    And Dr. Davis, this is something you are passionate about, 
as am I. I joined Big Brothers 31 years ago when my Little 
Brother was 9. He got a little older. He got in trouble, went 
to jail. He said, ``When I got out, I got 50 bucks, and the 
only person to pick me up was the one that got me in trouble to 
begin with. And it is hard to get a job.''
    And so we are seeing some changes take place in our local 
community that I think may be similar to what is taking place 
in Maryland. But this is privately. This is nonprofit, 
something called Cincinnati Works. You got a record, you come 
to us. And you want to go to work and you want to end this? And 
we will get you ready. And you join Cincinnati Works. You do 
not just fill out a form and we try and get you a job. You are 
part of this family now.
    We have a company called Nehemiah Manufacturing. They make 
Procter & Gamble products. Everyone there has a record. Every 
employee has a record. And they have the greatest workforce. I 
saw one gentleman stood up one day and he said, ``I am a 
taxpayer for the first time in my life,'' and he was about 40 
years old. This is the type of thing that we want to see taking 
place, that second chance I know you are passionate about, Dr. 
Davis. So am I.
    And these are things done, again, at the local level. And 
you are engaging with human beings, not just pieces of paper. 
And it sounds like that is what you are doing, Secretary 
Schultz. And I would like you to comment on the advantage of 
maybe that local flexibility and how we can make a real 
difference in people's lives.
    Ms. SCHULTZ. Well, thank you, Congressman. That is a very 
intriguing story.
    I think the flexibility part of what we are able to do goes 
directly to each individual program that we have. It is very 
important for everybody to know that the State of Maryland is 
not setting up the programs. The State of Maryland is verifying 
that these programs are healthy and that they exist so that the 
partnerships can basically run their programs.
    And we have oversight, and we work with them to make sure. 
But they understand what the needs are. They understand what 
the needs are of those industry sectors, of the businesses that 
are looking to hire into their businesses. But they also 
understand, much more than we do sitting in our office building 
in Baltimore, how that individual trainee, that future 
employee, needs to be served for their barriers to be 
mitigated.
    And they are the ones that are doing that. So providing 
them with the flexibility within their own area of expertise is 
something that I think serves everybody well.
    Mr. WENSTRUP. I would like to hear from anybody at a local 
level to say how we can make that more accommodating to the 
efforts on the local level so that success can be achieved.
    Ms. SCHULTZ. Well, Congressman, if I may, we did have--four 
years ago in 2015 there was some unrest in the City of 
Baltimore. The State Department of Labor received a $5 million 
demonstration grant from U.S. Department of Labor. I am very 
grateful for that.
    We worked very closely with the City of Baltimore to put 
this demonstration grant together. The final outcome was called 
``One Baltimore for Jobs.'' And with that, it was a series of 
individual programs, based on the EARN Maryland model, that 
basically took different parts of the city, brought in 
different employers that were looking for different skills that 
they needed to have, and it was 12 different training programs 
that happened within the City of Baltimore with the inclusion 
of those wrap-around services--with the case management, with 
legal aid, transportation, child care, anything that they may 
need.
    And that is what EARN is based on. And that microcosm that 
we were able to develop within the City of Baltimore for the 
period of time that we had funding for that was the extension 
of what we were able to do at the State level.
    Mr. WENSTRUP. Thank you. And I believe those wrap-around 
services are the key to getting things done.
    Ms. SCHULTZ. Yes.
    Mr. WENSTRUP. Thank you, Mr. Chairman. I yield back.
    Chairman DAVIS. Thank you.
    Ms. Chu.
    Ms. CHU. Well, thank you, Mrs. McKinnie and Mrs. Henry, for 
testifying today. Your personal perspective is very meaningful 
for us, and just emphasizes to us the need for paid family 
leave and child care. And I was fortunate enough to actually be 
in the California State Legislature in 2002 when we voted on 
the bill. So it is so wonderful to see, after 15 years of 
implementation, as to how far it has gone.
    Now we have six weeks of partial pay to employees who can 
take time to care for a seriously ill child, a parent, a 
parent-in-law, a grandparent, grandchild, sibling, spouse, 
registered domestic partner, or to bond with a new child that 
is entering the family through birth, adoption, or foster care 
placement.
    So Dr. Waldfogel, in your testimony you reference having 
studied California's policies and the positive outcomes that 
have been achieved since this policy has gone into effect. And 
I took special interest in noting the health benefits for 
children, who benefitted from one or both parents taking paid 
family leave. Can you expand upon that?
    Ms. WALDFOGEL. Sure. We found that the length of time that 
mothers take on leave doubled, and more than doubled for 
minority women and for less educated low-income women, who had 
been least likely to be able to have access previously. The 
amount of time that fathers take went up by about 50 percent.
    Then in terms of the health benefits, there are reductions 
in infants being hospitalized, increases in breastfeeding, and 
improvements in mothers' mental health after the birth, which 
of course is hugely important for child health and development.
    Ms. CHU. I remember the debates that took place in 2002 as 
the bill was going through the State legislature. And one, of 
course, had to do with businesses and small business worries 
that they could not afford such a policy.
    You mention that you have been studying States that 
implemented that, and there are some employers who, at the 
start of such a policy debate, would say that they cannot 
afford it or that they do not support the concept of paid 
leave. But your research on employer attitudes shows that two-
third of employers are supportive of paid family leave laws.
    Is that true even among small employers and across 
different types of industries? Can you talk about what your 
research has found on that front?
    Ms. WALDFOGEL. Amazingly, it is true in the small employers 
and it is true across industries. We were stunned. Our first 
study was in Rhode Island, and we did two industries where we 
thought it would be extremely challenging to have workers on 
leave, food services and manufacturing.
    We could hardly get these employers on the phone. Think 
about calling a Dunkin' Donuts, and when is a good time for 
someone at Dunkin' Donuts to take a survey? There was no quiet 
time. We finally went with a survey firm because we realized we 
could not do it ourselves. But when they finally got these guys 
on the phone--these are the direct line managers--they said, 
``It is not a problem. We are supportive.''
    And then we have since gone into New York and New Jersey, 
two other States that have laws. They are with much larger 
samples. We have got representative samples, 1,200 employers in 
both those States, so 2,400 total. These are small and medium 
firms, and we decided to go across the whole range of 
industries. So we have got the whole range of industries.
    Across all the industries, they are all supportive. The 
survey shows two-thirds support across the board regardless of 
firm size, regardless of industry, regardless of whether they 
have got predominately female employees, part-time employees. 
It does not vary. When the employees are out on leave, 
employers are covering the work by assigning it to other 
employees 80 percent of the time.
    Sometimes they have to hire a replacement worker. But they 
are not paying the worker while they are out on leave, because 
they are getting paid through the State fund. So in the rare 
instances where they have to hire a replacement worker or have 
someone do overtime, they are not double-paying because the 
person on leave is not being paid by them.
    So it has been a non-event for them--and some of the small 
employers say to us that it helps them compete with the larger 
employers because they cannot afford to offer the benefit, and 
they have been at a disadvantage. So they appreciate the fact 
that the State is picking it up through this fund that everyone 
is contributing to.
    Ms. CHU. And in fact, there would be actual benefits to the 
business?
    Ms. WALDFOGEL. Right. Exactly. Because it helps them retain 
their employees. Because it does not help them, either, if they 
have someone who has a disabled spouse or has to suddenly take 
care of their grandchild or a parent who is ill, they have to 
drop out of the labor market. That hurts the employer who is 
invested in that employee, and they have got to hire somebody 
new, train them, get them started up--in this labor market 
where it is tough to find people. So it is a benefit for 
employers as well.
    Ms. CHU. Thank you. I yield back.
    Chairman DAVIS. Thank you. Thank you very much.
    Mr. Evans.
    Mr. EVANS. Thank you, Mr. Chairman. Again I want to thank 
the chairman for this meeting because I think this is a 
fantastic discussion that we are having.
    Mrs. McKinnie, I have to ask you a question because you 
kind of touched a nerve when you said 5:00 in the morning. I 
think of that when my mom dropped me off at my Aunt Louise. 
There is something about 5:00 in the morning that you were 
saying you had to get things ready.
    I can only say to you that the issue I am most concerned 
about is, based on your experience, what do you think States 
can do better to connect grandparents like you and the 
resources that you may be eligible for?
    Mrs. MCKINNIE. What I think would help is that if we would 
have the funding for the grandparents because then we would 
have the assistance for child care.
    Mr. EVANS. Right.
    Mrs. MCKINNIE. Even to come into the home. But I think 
mostly it is because of the funding is not there for the 
grandparents, and grandparents are not recognized when it comes 
down to raising their grandchildren.
    Mr. EVANS. Obviously going back to you, can you please 
elaborate on what store flexibility you are provided through 
your employer? What type of flexibility is provided you?
    Mrs. MCKINNIE. The employer that I left----
    Mr. EVANS. Right.
    Mrs. MCKINNIE [continuing]. They gave me the option to 
start work at 12:00 p.m., or should I say 12:00 at night, and 
get off of work at 7:00 in the morning. That was the option. At 
the time, I could not--well, I cannot take that option because 
I want to make sure that I am there to raise them.
    But then also, I have Elijah with the special needs that he 
has. Sometimes he does wake up in the middle of the night. And 
if he does not see me or I do not come into his room to help to 
calm him down, then I would get a phone call.
    Mr. EVANS. Mrs. Henry, I thank you, too, for your sharing 
your story. But can you explain to us what you had to do to 
ensure your children were taken care of while you were at work 
and your husband was managing his health condition?
    Mrs. HENRY. Well, I am thankful. I am thankful for family.
    Mr. EVANS. Right.
    Mrs. HENRY. If it would not have been for family, this time 
would have been really, really difficult. Early on, when my 
children were younger, I did have Head Start, and I am thankful 
that Head Start was there for myself and my family.
    It is the best two-generation program that there is, helped 
me work with getting goals for myself, helped me when we were 
struggling to find--when we were fighting for my husband's 
disability through Social Security. They are the ones that 
recommended me to get a lawyer to do this.
    But outside of that, once they aged out of Head Start, we 
did not have many options. So I had to rely on either the 
family members and sometimes neighbors. Sometimes you did not 
know what kind of care you were putting your children in.
    So access to affordable, quality child care would have been 
best so I did not have to--and I hate to say ``burden,'' but 
sometimes it is burdensome to other family members when they 
have children of their own that they need to care for, and they 
have to work themselves. But family has been there for me.
    Mr. EVANS. Secretary Schultz, can you please explain the 
kind of training the EARN Maryland program provides? Are soft 
skills a part of the training? Because I have found that that 
is a big issue with some programs, that some do not necessarily 
deal with soft skills. Can you speak to that?
    Ms. SCHULTZ. Absolutely, and thank you very much, 
Congressman, for the question. It can be. It depends on the 
type of program because the State does not run the individual 
programs. The State provides funding and manages the 
partnerships that are there.
    So industries come to the training provider and to the 
community and tell them what is needed in order to be able to 
have a successful employee come into their business. Many of 
those employees, particularly if it is entry level training 
that is occurring, will say that they need to have different 
types of soft skills, as they have been called, life skills 
moving forward in order to be able to understand what the 
requirements are in that particular work environment. But some, 
if they are doing incumbent training, those life skills may 
already be in existence and they may not have to.
    So the type of training and the level of training that is 
needed by the individual partnerships will vary. And I think 
that that is one of the most fundamental reasons for success, 
is because there is flexibility for the businesses to say 
exactly what it is that they need for their future employees to 
come in.
    Mr. EVANS. Thank you. I yield back, Mr. Chairman.
    Chairman DAVIS. Thank you.
    Ms. Moore.
    Ms. MOORE. Thank you so much, Mr. Chairman. And I want to 
thank all of our witnesses for appearing and being patient with 
us.
    I have been sitting here scrawling and scribbling a little 
bit, doing the math. It just does not work out, Mrs. Henry and 
Mrs. McKinnie. I am sorry. I am really happy that you are 
appearing here today because this Committee is going to have a 
lot of discussions about welfare recipients and how to put them 
to work. But you people are not welfare recipients.
    I just want to just throw out a few statistics before I ask 
you all a question. A family of two making $16,910 a year is 
considered to be at the poverty level. And so perhaps they 
would qualify for daycare. But if you make a couple more 
dollars an hour, $9.35 an hour, you suddenly are not eligible 
for your daycare, just using your number of $600 a month, which 
is really cheap, but I will use your number.
    That will be like $3.75 an hour, which would leave a person 
making $9.35 an hour $5.62 an hour to raise their family. So 
they would actually fall below the poverty level if they had to 
pay for their own daycare. That just does not work out.
    God bless you, grandmother, not even kin to the child 
grandmother, for stepping up as you have. I know that autism is 
a very pernicious disease. It has a great association with 
schizophrenia, and the cost to government for taking care of 
Elijah is so much greater than any support that they are giving 
you.
    And Mrs. Henry, you are trying to take care of your family. 
And again, you say you did not really have those daycare 
problems. With having four kids, you really could forget it. We 
do not even have to do the math. So do not even bother do the 
math; I am just saying.
    Dr. Waldfogel, I was really interested in your testimony. 
And I am thinking that the United States is one of the OECD 
countries, the civilized countries, listening to what Ms. 
Sewell was saying earlier. Out of 36 countries, we are at the 
bottom--at the bottom of countries that provide family-friendly 
support so that women can go to work and do not find themselves 
in the situation of all the testimony we have heard today. And 
it is not just welfare recipients. It is women, like I have 
described, who make $9.35 an hour.
    Without family leave, without child care, we see the work 
participation rate falling in the United States. And it is just 
like fingernails scraping on a chalkboard when I hear the 
President, for example, bragging about the workforce and the 
low unemployment rate. But workforce participation is dropping.
    And is it fair to say that it is primarily because we do 
not have these family-friendly policies for women? There are 
lots of causes, but would that not be one of the biggest ones?
    Ms. WALDFOGEL. Yes. There is very good evidence on that. We 
are losing ground compared to other countries, and the 
difference is that we do not provide these family support 
policies. So when somebody has a disabled child, they have a 
young child, they have a disabled family member, they end up 
dropping out of the labor force.
    So they end up not working because it is too costly or 
because they cannot get the leave. They cannot get the child 
care. There is great work by Fran Blau and Larry Kahn from 
Cornell. They have looked at this across countries. And it is 
the reason why our labor force participation----
    Ms. MOORE. And so it is not just an unemployment rate or 
anything that determines what our economy looks like. It is 
workforce participation. That is a big number we need to be 
looking at with that----
    Ms. WALDFOGEL. Well, and it has implications for our 
economy and for economic growth. Obviously, parents are best-
positioned to decide what they want to do. So if it is best for 
their family for someone to stay home, that is their choice. 
But----
    Ms. MOORE. But it is not their choice if they----
    Ms. WALDFOGEL. But there are families where it is not their 
choice. These are families where they would like to be working, 
but cannot afford the child care.
    Ms. MOORE. They cannot afford the cheapest daycare. I 
cannot imagine only $600 with--tell these people in Washington, 
D.C. about $600 a month daycare. They would laugh at you. There 
is no such thing. This is just her number.
    Ms. WALDFOGEL. So either they are dropping out of the labor 
force, which hurts them and hurts the economy--it hurts all of 
us, and economic growth--or they are working and the children 
are in a patchwork of care, shifting every day from somebody 
different, which is no good for the children.
    Ms. MOORE. That's right. That's right. Bad for the family. 
Bad for the economy. Seventy percent of a capitalist economy is 
based on consuming. And when people cannot work, they cannot 
buy.
    And I would yield back to the chairman.
    Chairman DAVIS. Thank you. Thank you very much.
    Mr. Rice.
    Mr. RICE. Thank you, Mr. Chairman, for accommodating me 
sitting in on the hearing even though I am not a Member of the 
Subcommittee. But I was very interested in hearing the 
testimony. Thank you, ladies, for sharing your story.
    I represent an area in South Carolina of eight counties. I 
live in Myrtle Beach, which is a very tourist-oriented area. 
And then the area around Florence, South Carolina has a fair 
amount of industry. South Carolina as a whole is doing really 
well in our current economic expansion. The national 
unemployment rate is below 4 percent; South Carolina is below 4 
percent. And the Myrtle Beach area and Florence and a couple 
other of my counties are doing real well.
    But I also represent three of the poorest counties in South 
Carolina. And they have been struggling for a long, long time. 
Now, their unemployment rate is down; their unemployment rate 
is lower than it has been in 40 years, and that is good. But we 
have way too many people who are outside of the workforce.
    And it is a real paradox because on the one hand, in these 
prosperous areas, which are not far way, I have got employers 
that are screaming for employees. And then I have got these 
three very poor counties, where South Carolina, the poverty 
rate is about 14 percent. It is a little higher than the 
national average, but not that much.
    But in these counties, it is about 25 or 30 percent. And it 
is generational poverty. And convincing these people that the 
American dream is for them, too, and that there is opportunity 
for them, is a difficult task.
    So we have started putting together perceptions and 
workforces to try to pull together this glaring need for 
employees with this available group of people who have just 
dropped out, and ne'er the twain shall meet. We are engaging 
pastors, and we are engaging people--the tech schools, and 
guidance counselors, and superintendents, and teachers, and so 
forth, because it is not just people who have long been out of 
school. The guidance counselors will tell you, 30 percent of 
the people leaving high school, and they just have no direction 
and they just never enter the workforce.
    So I would like the two of your insight. I want to solve 
the problem. I try to lift people up all the time. And in my 
opinion, a job is the best cure to crime. A job is the best 
cure to poverty. A job is the best cure to drugs. A job--you 
get somebody, if you pull them back into the workforce, you are 
helping their family. You are helping their neighborhood. You 
are helping their State, and so forth.
    And I can tell you, in my tech schools--I've got three of 
them, and they do a great job--but they are not being effective 
at reaching this hard-to-reach population. I have got a tech 
school in Horry County, South Carolina. They offer classes in 
electrical and plumbing and welding and machining, and 100 
percent placement. And these people are making 50 percent 
higher than the State's median wage. And they cannot get people 
to sign up.
    It is not that it costs too much. It is not cheap. It is 
not a loan. It is free. If you come from a disadvantaged 
family, it is free. And not only is it free, they will pay your 
bus fare. They will pay your bus fare to get there. And they 
cannot get people to sign up.
    So I would like your insight. I cannot read your name. I am 
sorry, Mrs. Walfol?
    Ms. WALDFOGEL. Waldfogel.
    Mr. RICE. Yes, ma'am. I would like your insight. Give me 
some hints on what I should be doing. And then I want to just--
I only have--you got 45 seconds, and then I am going to turn to 
Ms. Schultz.
    Ms. WALDFOGEL. Well, I really like Congressman Wenstrup's 
emphasis on case management and actually talking to folks 
about, what is the barrier? Why are you not able to come to the 
training? Why are you not able to take it up? 15 percent of 
families with children have a kid with chronic special 
healthcare needs, whether it is asthma or something else, that 
they have got to manage at home, or autism. The older workers 
get, the more likely they are to have a disability or a serious 
health condition, or somebody----
    Mr. RICE. A lot of these people are just coming right out 
of high school.
    Ms. WALDFOGEL. Yes. So I would want to understand from 
them. I think then you have got to start with the case 
management approach. And we know from the years of welfare 
reform that--we talk about ladders and rungs on a ladder. And 
what is the first rung? It is getting you to the training or 
getting you to meet with the caseworker, and then setting some 
goals. And what is the next rung?
    And so maybe getting to training five days a week for that 
person is too much to do just then because there is so much 
else going on. There is some kind of mental health problem, 
substance use problem----
    Mr. RICE. I have to turn to Ms. Schultz. I am sorry.
    Ms. WALDFOGEL. Yes. But I think if you work with folks 
individually, I think then you learn an awful lot about what 
these barriers are because it is not going to be any one 
thing--we have talked about a lot of different scenarios, you 
and I. It could be a number of different things, and it is 
going to differ depending on who it is.
    Mr. RICE. Ms. Schultz.
    Ms. SCHULTZ. Thank you, Congressman. I think that many 
States are suffering from the same type of stats that you have 
said about your State, and we are working diligently to get to 
the young people earlier on, before they graduate from high 
school, and I think that is key. Developing different types of 
work programs and introducing the businesses to those 
individuals that are in the K through 12 system right now is 
very, very important.
    We have developed--in order to be able to not continue with 
that poverty that has gone through many generations. It was 
mentioned here a little earlier about the two-generation 
approach. So going with children that are in fifth, sixth, 
seventh, eighth grade, being able to introduce different types 
of business sectors, different types of work environments, 
particularly in South Carolina with the growth of advanced 
manufacturing that you are seeing as a success in South 
Carolina.
    Being able to introduce them early on so that they know 
there is a future. In the State of Maryland we developed a 
youth apprenticeship program, which connects businesses with 
individuals in high school to be able to get them immediately 
into a work environment, have an apprenticeable type of 
occupation with an employee that is tracking them along the 
way.
    And that started out as a pilot program in two counties, 
and now it is going statewide. In almost every county, we will 
have one by the end of next year. So we have heard from many of 
the different businesses that you have to get them, their 
attention, their attention and their parents' attention, far 
before they walk with their cap and gown on graduation day. It 
is going to start at a younger age.
    Mr. RICE. Thank you. I yield back.
    Chairman DAVIS. Thank you.
    Mr. Beyer.
    Mr. BEYER. Chairman Davis, thank you very much for allowing 
me to sit in. And I thank all of you for being here. It is a 
travesty that the U.S. Government comes in last among developed 
Nations when it comes to paid parental leave, and it is a 
benefit critical to starting a healthy family. So we are really 
intent on trying to end this archaic practice where you have to 
choose between a paycheck and a child.
    Federal employees are no exception. Just this week Carolyn 
Maloney, Jennifer Wexton, Steny Hoyer, and I introduced the 
Federal Employee Paid Leave Act to guarantee paid maternity and 
paternity leave for Federal employees. And interestingly, it 
has a positive Congressional Budget Office score the last time 
it was scored. It actually saves the Federal Government money 
to make sure this woman or a man comes back to work after the 
baby is born.
    Dr. Waldfogel, can you talk to the economic benefit of paid 
family and medical leave?
    Ms. WALDFOGEL. Sure. So I think we have been emphasizing 
the economic benefit to the families, which are really 
substantial--reducing economic hardship, promoting family 
economic stability. There is also an economic benefit to the 
government because we tend to focus short-term on, oh, somebody 
is going to be out on leave. But they are out on leave and then 
they are returning to work, rather than having to leave that 
job altogether.
    So they are going to be paying more taxes into the future. 
They are going to have higher earnings into the future. And 
there is a benefit for employers as well because they are 
retaining valued employees, and they do not have to hire a new 
employee and recruit and train and start somebody else.
    So although we have been emphasizing the benefits for the 
families, there are benefits as well for the government and for 
employers.
    Mr. BEYER. And by the way, for women especially, who often 
get knocked off their career ladder when they take a couple 
years off because they cannot go back.
    One of the other things that--I am very proud to be a co-
lead on a bipartisan bill to expand family leave for parental 
bereavement. It is called the Sarah Grace-Farley-Kluger Act, 
actually had death of a child as a life event that would 
qualify for leave under the Family Medical Leave Act. It is 
weird that right now, even under the unpaid, you get X number 
of weeks if you have a child born. But if one dies, you get a 
day or two. Can you talk about other shortcomings in the 
existing Family Medical Leave Act that States are addressing 
and that we should be addressing here?
    Ms. WALDFOGEL. The main shortcoming that the States are 
addressing is providing pay because the FMLA is unpaid. A 
second thing that they are doing is covering all employees, 
regardless of firm size. We were talking earlier about 
California. It is just remarkable that California, right from 
the get-go, covered all employees, regardless of firm size. And 
it has turned out to be no problem for small employers. And so 
the other States have followed suit. So they are all covering 
employees regardless of firm size.
    So the States are going beyond FMLA in providing payment, 
in covering all employees, and they are also starting to expand 
the definition of family members. So whether these leave laws 
cover if you need to take leave to care for a grandchild--
actually, not all of them do. And what we have heard today is 
that there are all these families where grandparents are taking 
care of grandchildren. Not all of them are eligible for leave, 
and of course, they should be. So that has been another area of 
expansion.
    Mr. BEYER. So while we talk expansion, we read recently 
that the birth rate in the U.S. is the lowest in 30 years. It 
has fallen every year for the last 10 years in a row, and it is 
now down to 1.7 babies per woman, and 2.1 is replacement. The 
last time we were at replacement rate was 1971.
    And I know from my own experience--I am in Northern 
Virginia that my pal talks about--so I have yet to talk to a 
woman where the cost of child care does not equal their take-
home pay. You have got to be a partner in a major D.C. law firm 
for that not to be true.
    But you also see that there is an underfunding, that so 
often it is only the wealthiest that get it because it is not 
refundable. Can you talk about how much added benefit it would 
be if the child care tax credit was refundable?
    Ms. WALDFOGEL. Okay. So for the families at the very bottom 
of the income distribution, there is basically a lottery. So if 
you win the lottery, you get a child care subsidy or you get a 
Head Start slot or an early Head Start slot. That is a real 
lottery. That is very rare.
    Middle income families really are not even in the lottery. 
They can get the tax credit. But there are no guaranteed 
subsidies for them. Making the tax credits refundable would 
then reach those low-income families and give them more of a 
guarantee of a child care subsidy, whereas now it is this 
lottery whether you could get a child care subsidy.
    Mr. BEYER. I have one of the most educated and most wealthy 
districts in the country. And the number one and two complaints 
are the cost of healthcare, prescription drugs and premiums, 
and then number two is the cost of child care and how difficult 
it is.
    All right. Thank you very much. Mr. Chair, I yield back.
    Chairman DAVIS. Thank you. Thank you very much.
    The fact that we have had several Members come and 
participate who are not Members of this Subcommittee I think is 
an indication of how important we all feel that this issue 
really is. So I want to thank you, Mrs. McKinnie, you, Mrs. 
Henry, Dr. Waldfogel, Secretary Schultz, for coming to share 
testimony with us.
    I also want to thank all of you who have come and sat 
through the hearing, and both of our staffs on their 
preparation work, to us, this is the beginning, and it simply 
means that over the period of time we hope that many of the 
thoughts and ideas you have expressed will become real and get 
etched into law as we try and help make sure that we increase 
and improve the quality of life for families, and especially 
for our children that the songwriter said are most important 
because the future of our world depends upon them.
    So we thank all of you for your participation, and the 
Subcommittee is adjourned. Thank you.
    [Whereupon, at 3:38 p.m., the Subcommittee was adjourned.]
    [Public Submissions for the Record follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
